WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OFFICE OF THE CLERK

APR 0 2 2020

No. 19-1169
Jonas Ybarra, Jr.
(Petitioner)

v.

Texas Health and Human Services
Commission, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
yi Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
51 I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature /s/ Benjamin Lyles
Date: 3/31/20
(Type or print) Name Mr. Benjamin Lyles
0 Ms.
GI Mr.

0 Mrs.

0 Miss

Firm Office of the Attorney General
Address P.O. Box 12548 , Capitol Station, Austin, Texas 78711-2548
City & State Austin, Texas

Zip 78711-2548

Phone 512-475-4112

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Ed Stapleton
STAPLETON & STAPLETON LAWYERS
2401 Wildflower Drive, Suite C
Brownsville, Texas 78526
(956) 504-0882
FAX: (956) 504-0814
ed@ed-stapleton.com

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

KEN PAXTON
ATTORNEY GENERAL OF TEXAS
BENJAMIN LYLES
Assistant Attorney General
General Litigation Division

PHONE: (512)463-2120
FAX: (512)320-0667
EMAIL: Benjaminlyles@oag.texas.gov

April 2, 2020
Via FedEx No. 7701 6127 5081
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Appeal No. 19-1169
Jonas Ybarra, Jr. v. Texas Health and Human Services Commission, et al.

Dear Court:
Enclosed please find Texas Health and Human Services Commission's Waiver
in the above-referenced matter. Thank you for your attention in this matter.

Sincerely,
Shanda Green
Shanda Green, Legal Assistant to:
BENJAMIN LYLES
Assistant Attorney General

RECEIVED
APR - 6 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.
POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548 TEL: (512)463-2100 WEB: WWW.OAG.STATE.TX.US
An Equal Employmenl Opporlunay Employer • Primed on Recycled Paper

